                                                NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

)I( Case Number: A02020013
                     - -                   -          -
                                                                        11
                                                                         -
                                                                                 Page 1of 1

          I n February 2002, the complainant' alleged that a PI'S announcement seeking
          students to participate in research contained a word that might be a potential
          violation of NSF policy. The PI of an REU (Research Education for
          Undergraduates) site award2 solicited undergraduate students-particularly
          women, minorities, and underrepresented groups-to participate in long-term,
          multidisciplinary research. The complainant alleged the use of the word
          "particularly" indicated those groups would be given preferential treatment, which
          was against NSF policy.

          We asked NSF's Office of General Counsel if such language did indeed represent a
          violation of policy. We learned the Science and Engineering Equal Opportunities
          Act of 19803 directs the Foundation to support activities designed to increase the
          participation of women and minorities in courses of study at the undergraduate,
          graduate, and postgraduate levels. Thus, any NSF program or grantee institution
          that emphasizes the importance of increasing the participation of women or
          minorities is consistent with this statute, and NSF's policy embodies this
          Congressional mandate. Accordingly, this case is closed and no further action will
          be taken.




              1 (footnote redacted).
              2 (footnote redacted). '
              3 42 U.S.C. 1885, et seq..




I
                              Agent              Attorney         Supervisor            AIGI

      Sign / date
